<html>
<title> - COAST GUARD MISSION NEEDS AND RESOURCES ALLOCATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





















           COAST GUARD MISSION NEEDS AND RESOURCES ALLOCATION

=======================================================================

                                (114-44)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 14, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-498 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                             Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois
                                ------                                

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
BOB GIBBS, Ohio                      CORRINE BROWN, Florida
MARK SANFORD, South Carolina         JANICE HAHN, California
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
CARLOS CURBELO, Florida              JULIA BROWNLEY, California
DAVID ROUZER, North Carolina         PETER A. DeFAZIO, Oregon (Ex 
LEE M. ZELDIN, New York                  Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY

Admiral Charles D. Michel, Vice Commandant, U.S. Coast Guard.....     3
Jennifer A. Grover, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office...............................     3

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Admiral Charles D. Michel........................................    35
Jennifer A. Grover...............................................    48

                       SUBMISSIONS FOR THE RECORD

Admiral Charles D. Michel, Vice Commandant, U.S. Coast Guard, 
  responses to questions for the record from the following 
  Representatives:

    Hon. Duncan Hunter of California.............................    40
    Hon. Don Young of Alaska.....................................    43
    Hon Daniel Webster of Florida................................    46
    Hon. Bob Gibbs of Ohio.......................................    47



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




 
           COAST GUARD MISSION NEEDS AND RESOURCES ALLOCATION

                              ----------                              


                         TUESDAY, JUNE 14, 2016

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order. The 
subcommittee is meeting this morning to review the Coast Guard 
mission needs and report released by the GAO reviewing how the 
Service allocates its resources. Under section 2, title 14, the 
Coast Guard is responsible for a wide range of missions, from 
search and rescue, icebreaking, and marine environmental 
protection, to port security and drug interdiction. The Coast 
Guard is using a strategic planning process which determines 
mission priorities based on risk and helps guide the Service in 
allocating resources among its statutory missions.
    GAO noted in its report that not all of the processes used 
by the Service to allocate its resources have been transparent. 
And I actually went through some of the stuff. The MNS and some 
of the other things that you use in the Coast Guard to 
determine what gets used where and how many hours are allocated 
as opposed to how many hours are actually used. And it was very 
complicated. But I'm not that smart, enough to actually see 
through it. So we'll talk about that more today, and maybe find 
a way to dumb it down so that us mere mortals can understand 
how the resources are allocated and what the top lines are, and 
so forth. OK, good. Maybe you could translate it to us, please, 
Ms. Grover.
    As the Nation's primary maritime response organization, the 
Coast Guard often must surge assets and personnel to respond to 
a hurricane, oil spill or other national or international 
emergency. As the Service did on April 10th--excuse me, April 
2010, it moved over 150 assets and 7,500 personnel to the Gulf 
Coast to lead response efforts to the Deepwater Horizon oil 
spill. The Coast Guard is also tasked with preventing maritime 
accidents, keeping our borders secure, and protecting our ports 
and waterways. In fiscal year 2015, the Service conducted over 
12,000 safety, security and environmental inspections of U.S. 
and foreign-flagged vessels, and interdicted 6,000 undocumented 
migrants, and 179 metric tons of illegal drugs.
    The Coast Guard works hard to meet its missions. And this 
subcommittee wants to ensure that the Service retains its core 
competencies and acquires the assets needed for its response 
missions and day-to-day prevention work. However, it does seem 
at times that the Service presents a rose-colored glasses view 
of the capabilities and capacities of its assets. This 
subcommittee also needs to understand where current assets may 
be failing to support the Service's ability to meet its mission 
demands. And how the Service then conducts risk assessment, to 
move assets around, to cover mission gaps, when it may not be 
possible to cover those gaps, and what missions are impacted. 
We'll talk specifically about icebreaking, we'll talk 
specifically about land, land-based UAVs too, when we get into 
the hearing.
    The GAO report notes that for the most part, Coast Guard 
assets are not reached in the allocated resource hours the 
Service includes in its planning documents. And its field units 
are not uniformly tracking data to show what missions are being 
supported by the assets when in use. This is another thing 
we're going to--what I'd like your help on is this is, how do 
we not bureaucratize the Coast Guard to where everybody's just 
simply filling out time sheets 24/7, trying to track what their 
assets and doing are when. So you can actually go out and do 
your missions. But at the same time, kind of present a real, 
call a transparent or easily understandable view on what your 
assets are doing and how they're being allocated.
    There are a lot of moving parts to understand how the Coast 
Guard manages its resources. For those of us trying to support 
the Service, the various documents, the Mission Needs 
Statements, Capital Investment Plan and Programs of Record can 
be less than helpful in revealing how the information they 
provide flows into the annual budget requests and influence 
overall decisions on asset use and acquisitions. We here are 
your supporters. It should not be this difficult to unravel the 
needs of the Service or to understand how existing assets are 
performing. The Coast Guard updated its Mission Needs Statement 
in 2015, and I look forward to discussing how that Mission 
Needs Statement will be used to establish an achievable asset 
acquisition plan.
    We have been at this, recapitalizing the services assets, 
since the late 1990s. John and I have been doing this for 
about, what, 4 years now, specifically here. While the 
complexities of the world continue to grow, we need to make 
sure the Coast Guard is at its most capable, now more than 
ever. I look forward to having a frank discussion with our 
witnesses, and I thank you all for coming. With that, I yield 
to the ranking member, Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman, and, for scheduling 
this meeting to assess the Coast Guard's new Mission Needs 
Statement, and implications of how the Coast Guard allocates 
its resources. I'd first like to state my greetings to Vice 
Commandant of the Coast Guard, Admiral Charles Michel. Welcome. 
Delighted to see you and have a little conversation before we 
even started the meeting. And also welcome, Jennifer Glover, 
from the Government Accountability Office, who can answer all 
the questions that the chairman just raised. Thank you very 
much for being here.
    Even the most junior boatswain, mate, can tell you before 
you can accurately chart a course to arrive safely at any 
destination, you first need to have a reliable compass to give 
you an accurate heading. Well, is that what the Mission Needs 
Statement provides for the Coast Guard? We're going to find 
out. Is it a reliable compass to guide them forward? We hope 
so. And we'll hear about it today. But we can all agree that 
far too much time has elapsed between today and when the Coast 
Guard's last Mission Statement was developed in 2005.
    In many respects, the assumptions embedded in that analysis 
reflect a much different time and a much different Coast Guard. 
For example, the mix of assets available to the Coast Guard to 
meet its mission needs is now, the Coast Guard is now in the 
midst of the large recapitalization effort in the Service's 
history, including a whole bunch of new airplanes they didn't 
even know they'd ever get, like the 27s. Yet this transition is 
not without irony. For at a time when the Coast Guard is 
receiving the most modern and most capable assets in its 225-
year history, missteps and delays in the acquisition of these 
assets have forced the Coast Guard to rely on its remaining 
legacy assets, which have become ever less reliable and ever 
more expensive to operate each year. So we hope the Coast Guard 
is prepared to get on with its future, with its new assets, in 
a timely and appropriate-cost way.
    Additionally, a changing global climate has accelerated the 
opening of the Arctic region. This circumstance has prompted 
new operational challenges for the Coast Guard, while 
simultaneously creating a shifting, uncertain geo-political 
environment for the Coast Guard to operate in. Most 
regrettably, the spectra and reach of nonstate terrorists or 
transnational criminal organizations continually place the 
Coast Guard in ever growing demands to ensure the safety and 
security of the United States. Our maritime commerce as well as 
our people. And it's not just here in the Western Hemisphere, 
but it's globally.
    I had the pleasure of seeing some of the Coast Guard ships 
stationed in Qatar, or excuse me, Bahrain, when I visited there 
a few months ago. And so the Coast Guard has a new compass, the 
Mission Statement. We're going to explore that today. We know 
we must do our work to ensure that the Coast Guard uses this 
new analysis to best allocate its resources, and for Congress 
to provide the support necessary to carry it out. So if the 
Coast Guard is semper paratus, so too must the Congress. Your 
11 Statutory Missions are your guideposts. The Mission 
Statement is how you're going to get there. Mr. Chairman, thank 
you for scheduling the hearing. I look forward to the 
discussion.
    Mr. Hunter. I thank the ranking member. Let me introduce 
the witnesses. They're Vice Commandant Charles Michel. Admiral, 
congratulations on your recent promotion. And Ms. Jennifer 
Grover, Director of Homeland Security and Justice for the 
Government Accountability Office. And with that, Admiral, 
you're recognized.

 TESTIMONY OF ADMIRAL CHARLES D. MICHEL, VICE COMMANDANT, U.S. 
    COAST GUARD; AND JENNIFER A. GROVER, DIRECTOR, HOMELAND 
  SECURITY AND JUSTICE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Admiral Michel. Well, thank you, Mr. Chairman, Ranking 
Member Garamendi, and members of the subcommittee. Thank you 
for the opportunity to appear before you today to speak on 
behalf of the 88,000 men and women of the United States Coast 
Guard, serving around the globe today. I ask that my written 
statement be accepted as part of the official record, and I'd 
be allowed to summarize my remarks.
    This subcommittee has significantly advanced our long-term 
acquisition strategy and provided critical support for our 
Coast Guard men and women. Thank you for helping us build a 
21st-century Coast Guard, capable of achieving national 
objectives, wherever American maritime interests may lie. We 
are operating in both polar regions, where human activity is 
increasing dramatically, particularly in the Arctic. We are 
managing emerging cyber challenges in our maritime industry. We 
are combatting transnational organized crime throughout our own 
hemisphere. And we are keeping pace with changes in the 
commercial maritime industry to ensure that we facilitate and 
not impede the vitally important industry that we regulate.
    Notably, our increased efforts, along with those of our 
interagency and international partners are contributing to 
significant disruptions against organized criminal networks, to 
include the detention of over 700 smugglers and over 190 metric 
tons of cocaine bound for the United States in 2015. And I just 
got the latest figures here. This year, we and our partners are 
on a record pace, having already disrupted over 245 metric tons 
and detained 391 more narco-traffickers. And they told me the 
projections would be that we're likely to see a 400-plus metric 
ton disruption year. And we can talk about the reasons for 
that. I just got those figures this morning, sir, from my intel 
folks.
    In very real terms, we are taking billions of dollars from 
the hands of illicit cartels. And each interdiction contains a 
treasure-trove of intelligence that we can use to exploit the 
gaps and seams in criminal networks that lead to even more 
seizures and arrests. Intelligence drive operations like they 
never had before. And we can talk a little bit about that, sir. 
And these successful interdictions do far more than just remove 
drugs from the stream of commerce. Dismantling criminal 
networks reinstates the rule of law, curtails violence, and 
brings needed stability to Central America.
    The widespread violence in our own hemisphere is directly 
related to illegal migration on our southern border, as we saw 
in 2014, when over 68,000 unaccompanied minors arrived in the 
United States. To be sure, our own national security is 
challenged by cartel syndicates operating well inside our 
homeland, from Texas to New England and everywhere in between. 
Removing cocaine at sea strikes directly at their financial 
supply lines, and it remains vitally important that we continue 
to fight this fight.
    The appropriation you provided in 2016 and the President's 
budget requested in 2017 will allow us to move forward with the 
recapitalization of our over 50-year-old Medium Endurance 
Cutters, with the Offshore Patrol Cutter. We are confident that 
we will down-select to a single ship builder and award OPC 
detailed design by this end of this fiscal year. Turning to the 
far north, cutter Healy began a deployment just last week to 
the Arctic, where she will further United States sovereignty 
interests by collecting seabed data that will directly support 
any U.S. extended continental shelf claim. This is an area 
potentially twice the size of the State of California.
    We're tremendously grateful for the President's commitment 
to building new, heavy icebreakers, and for your support to get 
us through the critical design phase we are now undertaking. We 
look forward to continuing to work with you to accelerate heavy 
icebreaker acquisition. We've provided a Coast Guard Mission 
Needs Statement, and we are undertaking an updated Fleet Mix 
Analysis that will take into account operational data, 
technological advancements, and new assets, like the C-27J that 
Representative Garamendi mentioned, and a ninth National 
Security Cutter, that were not available during our last 
analysis. I took forward to sharing those results with you as 
we work forward, to determining the composition of our surface 
and air fleets.
    As important as these new platforms may be, investing in a 
21st-century Coast Guard is as much about people as it is about 
ships, boats and aircraft. Our 2017 budget request recognizes 
the critical importance of building the workforce of the 
future. This is not without challenges. Though we have the best 
workforce in Coast Guard history, we are seeing the impact of 
decreased retention and slowed accessions. Our increasingly 
uncertain and complex world requires high-end skill sets from 
an in-demand talent pool. Cyber intelligence, marine 
inspection, and other technically trained professionals have 
many options today, and we strive to be their employer of 
choice. I look forward to this committee's continued support of 
our Coast Guard. Again, I thank you and look forward to your 
questions.
    Mr. Hunter. Thanks, Admiral. Same here.
    Ms. Grover, you're recognized.
    Ms. Grover. Thank you. Good morning, Chairman Hunter, 
Ranking Member Garamendi, other members and staff. As the 
admiral noted, the Coast Guard, like other organizations, is 
only as good as its people and assets. During our work, we find 
the servicemembers of the Coast Guard to be consistently hard 
working and talented. But one of the challenges facing the 
Coast Guard is making sure that it has the right mix of assets 
deployed to the right missions at the right times, to best 
equip its people to carry out those missions.
    My statement today will focus on two points. First, a call 
for the Coast Guard to make tough decisions about the mix of 
assets that it needs and can afford in today's budget 
environment. And second, recognition that the Coast Guard is 
taking steps to enhance the effectiveness of its strategic 
asset allocation process, which will help ensure that its 
limited assets are deployed effectively and as intended.
    First, regarding those tough decisions about an effective, 
realistic mix of assets for today. The 2007 baseline stands as 
the official record of the Coast Guard's plan for its intended 
asset mix. Yet it does not reflect the mix of assets that the 
Coast Guard has acquired since then. Since the baseline was 
developed, the Coast Guard has received additional assets 
beyond those planned, such as the C-27Js, and the ninth NSC. 
And some planned assets have been delayed or reconsidered, such 
as the unmanned aerial vehicles and the full component of the 
HC-144 aircraft.
    Also, the Coast Guard's understanding of its asset 
capabilities has evolved. In several cases, planned 
capabilities have been revised downward to reflect more 
realistic operational targets. For example, the fast response 
cutters are now expected to operate at 2,500 hours per year, 
not 3,000. As a result of the delays in acquisitions and 
reduced operational capacities, the actual resource hours that 
were used during FY 15 fell short of what was originally 
planned for every asset type.
    For example, in 2015, a mix of legacy and new patrol 
cutters used 48 percent of the resource hours that were 
specified in the baseline. In addition, the cost of the 
acquisition portfolio has grown far beyond original 
expectations, which in part reflects optimistic funding 
assumptions. As a result, the Coast Guard has been shaping its 
asset acquisitions in a reactive mode, through the annual 
budget process. These short-term budget decisions may not lead 
to good long-term investments. A long-term Fleet Modernization 
Plan, that is affordable, would help the Coast Guard to ensure 
that they end up with the fleet that they need to optimize 
performance going forward.
    My second point, based on a new GAO report completed at the 
request of this subcommittee and being released to the public 
today, is about improvements that the Coast Guard is making to 
its strategic deployment of assets. The Coast Guard has taken 
several steps to improve its asset deployment, including 
collecting better data on asset hours used by mission, tracking 
how increased strategic commitments are affecting the hours 
available to field unit commanders, and incorporating more 
realistic information about asset capacities into strategic 
planning documents.
    On this last point, we found that in FY 15, Coast Guard 
units used only three-fourths of the asset resource hours that 
were allocated by headquarters through the strategic planning 
process. This is not a failure of Coast Guard personnel to make 
full use of their assets. Rather, the shortfall reflects an 
unrealistic statement of asset capacities, based on 
manufacturer maximums that are not adjusted for asset age or 
condition. Incorporating more realistic information from the 
field units will allow the Coast Guard headquarters to have 
greater strategic influence on how asset hours are used.
    In conclusion, the Coast Guard is taking positive steps to 
improve the accuracy of its asset allocation process. This will 
help ensure that its limited assets are used as effectively as 
possible. Yet more work remains for the Coast Guard to identify 
the costs, capabilities and quantities of the assets it needs 
for its modern fleet mix, as well as the tradeoffs necessary, 
given fiscal constraints. Chairman Hunter, Ranking Member 
Garamendi, this concludes my statement. I look forward to your 
questions.
    Mr. Hunter. Thanks, Ms. Grover. Thank you both. We'll start 
taking questions now. I recognize myself. I guess the first 
thing is, let's just touch on what you just talked about. It's 
not that the Coast Guard, it's not that they put the bar where 
it's supposed to be, then they can't reach the bar. The bar 
needs to be lower. Meaning, meaning, the bar needs to be lower 
in terms of what their assets can actually do. And that would 
make them actually look like they're doing their job better, 
and in allocating resources correctly?
    Ms. Grover. In terms of the asset allocation process, 
that's right. They're using assumptions about asset 
capabilities that aren't realistic with what the assets can 
actually do.
    Mr. Hunter. So, Admiral, why, why would you set the bar 
unrealistically high, then say, every year, we can't meet the 
bar?
    Admiral Michel. This is, it's a complicated issue.
    Mr. Hunter. And we talked about this, by the way. When I 
first got this job at some point 3 or 4 years ago, I said, you 
guys aren't, by your own admission, reaching your full 
capacity. And it was--but you are, really. You are reaching 
your full capacity, it's just that the bar is set too high in 
whatever formula you used to say what your capacity should be.
    Admiral Michel. Yeah. I mean, this, it's a complicated 
issue, Chairman. It has to do with accounting. So when we, when 
we do our budget models and we figure out how many spare parts 
and our dry dock schedule and things like that, they're based 
on baseline uses for that particular asset. And some assets, 
like our rotary wing fleet we operate within just a few 
percentages of what we allocate. And there are reasons for 
that.
    The vast majority of the operating hours that we have are 
down at our small boat stations. And there are very good 
reasons why our small boat stations don't operate at 100 
percent capacity. Part of it is our small boat stations need 
surge capacity for things like hurricanes. So they're not 
supposed to exceed their--when they start exceeding their 
hours, then they're burning the candle at both ends, and 
they're taxing the logistic systems, they're taxing our 
platforms. They're ending the service lives of those platforms, 
because they're operating above platform maximums. But they've 
got to plan all the way to the end of the fiscal year. I know 
you mentioned about surging 150 assets down to Hurricane 
Katrina. If you don't have that capacity in the system to 
surge, then you're going to exceed your----
    Mr. Hunter. But Ms. Grover is saying that you are operating 
at just about full capacity. It's simply not reflected in where 
you have the bar. Meaning that gap doesn't really exist.
    Admiral Michel. Well, if I lowered the bar artificially, 
I'd still have to take into account the maintenance schedules 
and budgeting and crew training and crew manning that come with 
that particular asset hour. And then what the guys at the small 
boat station will do, they'll take another cut even below that, 
so they make sure they have enough surge capacity to come along 
at the end of the fiscal year. And regrettably, the end of the 
fiscal year is July, August and September, which is the height 
of hurricane season. And you've got to have some surge 
capacity. You can't budget every single hour up to the maximum 
allotted, or you're not going to have any surge capacity left. 
Or you're going to exceed the operating hours on the platforms. 
And that has its own baggage, when you go beyond the operating 
hours.
    I'll give you another example. For Great Lakes icebreaking, 
you can't predict what type of an ice year you're going to get 
up on the Great Lakes. A couple of years ago, we had so much 
ice up there, we had to rely on the Canadians and others to 
help us out, or we would have been in a real world of hurt. But 
last year we had hardly any ice at all. So how do you assign 
the operating hours for those platforms with any degree of 
certainty? And that's just one example. That goes across the 
entire enterprise.
    So it's an accounting measure in some perspective. And I 
could lower the bar. The problem is, it's going to end up 
lowering the bar again. So I would prefer to stay with the 
maximum operating hours. That allows us to budget so that we 
can determine the service lives for these platforms and allow 
our operational commanders to manage that surge gap. But I do 
agree with, and we did provide, back to GAO's recommendation, 
that we would include better field input in trying to come up 
with realistic measures on this. And we agreed to do that. And 
I think we can close the gap to a certain degree. But I don't 
want to give you the illusion we're going to budget down to the 
last hour here.
    Mr. Hunter. OK.
    Admiral Michel. It's just not possible. And not actually 
even desirable, Chairman, to do that.
    Mr. Hunter. OK. So let's talk icebreaking then, since you 
brought it up, Admiral. The Senate just appropriated or is 
going to appropriate $1 billion for an icebreaker. Do we all 
know that now? It hasn't been passed yet, but they're going to 
do it. That's a pretty big leap. That's, that's great that they 
are going to do it. So here, here's my question. We're going to 
give you--you're now going to have the authority to buy lead 
materials. You're going to have the authority to do block buys, 
multiyear procurement. You'll have the ability to buy two or 
three icebreakers if you wanted to at one time.
    So let's say that they do $1 billion--was sitting here and 
testified that if you build two, you can save $100 million. 
We're going to need more than one. Would the, would you say, 
would you agree with that, we're going to need more than one 
icebreaker in the next 25 years? And this is all considering 
the fact that it's going to take 10 years to get this done 
probably.
    Admiral Michel. Well, first of all, when we talk about 
icebreaking, I talked about domestic icebreaking, which is in 
the Great Lakes, rivers and things like that.
    Mr. Hunter. But I mean----
    Admiral Michel. That's its own, that's its own world.
    Mr. Hunter. Arctic icebreaking.
    Admiral Michel. So we're talking about polar icebreaking.
    Mr. Hunter. Yes.
    Admiral Michel. And we're talking specifically about heavy 
polar icebreaking.
    Mr. Hunter. Medium to heavy, right.
    Admiral Michel. Well, we need to talk about that, sir, 
because there's different capabilities and different things 
that come along with medium and heavies. The Senate marked us 
for a heavy icebreaker. The President's budget request isfor--
--
    Mr. Hunter. One.
    Admiral Michel. A heavy icebreaker, yes, sir. And the 
President, in his statement at the Glacier Conference, said, 
``We will begin construction activities on a heavy polar 
icebreaker, begin construction activities in 2020 and plan for 
additional icebreakers.'' Our Commandant--heavy icebreakers. 
Our Commandant has also testified that we need self-rescue 
capability for our heavy icebreaker. And that includes the 
existing Polar Star that we have out there now. So that means 
at least two. The high latitude study says three heavy polar 
icebreakers is what the Coast Guard's requirement is. So that's 
kind of what we're talking about for heavy icebreakers.
    Mr. Hunter. OK, so, right. So my question was, though, is 
the Coast Guard going to need more than one heavy icebreaker 
going forward in the next 25 years?
    Admiral Michel. Yes.
    Mr. Hunter. OK. Then why don't we work with the Senate 
right now to work on saving $100 million and trying to build 
two. Or at least getting the lead materials and the designs for 
two instead of one. I would guess once you design one, you're 
going to find flaws in that. Kind of like the NSC and some 
other, other ships that we have built. You're going to find 
flaws in the first one. It's going to cost money to fix those 
flaws in the first one. But that will set you up for success on 
your second one and follow on ships, right?
    Admiral Michel. Yes, sir. And I have staff looking at 
potential block buys of vessels of that, that are actively 
looking at that. Right now the President's budget request is 
$150 million for the construction of a heavy polar icebreaker 
and I support that request. We need that request, and we need 
that on the schedule that it is. I understand the Senate also 
included in the Navy shipbuilding budget $1 billion for a heavy 
polar icebreaker. Obviously that's beyond the President's 
budget request. But I think it is a signal of at least on the 
Senate's side, of interest in constructing a heavy polar 
icebreaker. And that, my understanding of that language, that 
is a single vessel.
    Mr. Hunter. OK. What would be the delivery time, if 
everything was on schedule? What would be the delivery time for 
the, a heavy icebreaker?
    Admiral Michel. So if the Congress were to approve the 
President's budget request for $150 million--I think it's $147 
million, but I'll just use the $150 million request--that is 
designed, sir, that figure is designed to meet the President's 
statement that he made at the Glacier Conference. So that would 
begin construction activities in 2020. And the estimated 
completion time to get that vessel online would be 2024 to 2025 
is the best estimate that I have, having talked with my 
shipbuilding experts, and also having sort of traveled around 
the world to a certain degree, talking with icebreaker experts 
as well as domestic shipyard people. 2024 to 2025 is my best 
estimate for getting that ship online.
    Mr. Hunter. OK. So let's just for argument's sake, for this 
hearing, so let's say it's say 2026. So let's say it's 10 years 
out from now. What is your plan to address the capability gap 
in the next 10 years?
    Admiral Michel. Well, and once again, we're talking about 
heavy polar icebreaking. This goes to a discussion Ranking 
Member Garamendi and I just recently had right here before the 
hearing. Right now we have the Polar Star operating. It's got 
about another 5 to 7 years left of projected life, unless we 
want to take another recapitalization, like a rolling 
recapitalization of that vessel. And we have not made a 
decision to do that. We just had Polar Sea, which is inoperable 
currently, out of the water, at Vigor Shipyard. And an 
assessment is due to the committee on July the 24th, as 
promised by the Commandant, a material assessment of that 
particular vessel. And we are on schedule to deliver that to 
you.
    But all those decisions on a rolling recapitalization for 
Polar Star, or what we want to do with Polar Sea, need to be 
judged in context. And I have underway an alternatives analysis 
that will take a look at how we want to bridge out to that new 
icebreaker. And that's what I'd like to do is bridge out to 
that new construction icebreaker that I request the Congress' 
support and assistance in the President's budget request.
    Mr. Hunter. So how do you plan to fill the capability gap 
over the next 10 years? So let's say that oil goes up to 120 
bucks a barrel tomorrow and then you get Shell and everybody 
else goes to the Arctic, they start trying to find oil there. 
It becomes very busy. What do you do? How do you fill the 
capability gap over the next 10 years?
    Admirable Michel. Well, that's a broader question said, 
sir. And when you're talking about working in the type of work 
that Shell does, you're not necessarily talking about heavy 
icebreaking capability. Heavy icebreaking capability is a sort 
of sui generis. It's a world of its own. It provides you with 7 
by 24 by 365 access to ice covered regions. That's what heavy 
icebreaking capability does for you. Lesser types of vessels 
may be used, useful in seasonal areas or in less demanding ice 
environments than currently exist in Antarctica or certain 
types of conditions that they get up in the Arctic, with 
ridging. And during certain parts of the year.
    We also have the vessel Healy, which is a medium 
icebreaker, that is available. We're going to have to take a 
look on, and we already have a group underway on serving and 
design work for a midlife program, or a service life extension 
program for the Healy. That vessel is usable for that type of 
work that Shell does, but it's not usable in the heavy 
icebreaking environments.
    So for example, we took the Healy down in the early 2000s 
with Polar Sea and Polar Star. I can't remember which one it 
was actually with. We took it down to Antarctica to see whether 
it could operate down there, during the summer in Antarctica, 
and it got stuck in the ice. And we had, we were lucky we had 
Polar Sea or Polar Star in there and break that thing out. So 
there are ice environments that are not----
    Mr. Hunter. Conducive?
    Admiral Michel. You can't use medium icebreaking capability 
there. It ends up getting stuck. Like the Xue Long, if you 
remember the Chinese medium icebreaker got stuck, and the 
Akademik Shokalskiy got stuck. We cannot afford to get ships 
stuck. Right now where we are is we have the Polar Star 
operating, the Nation's only heavy icebreaking capability, and 
there is no back up for it.
    Mr. Hunter. I'll pass this on to Mr. Garamendi. How do you 
plan on filling the capability gap until you get a heavy 
icebreaker, which is 10 years at the least, based on the best 
projections of Congress and everybody working together? You 
still haven't answered that one.
    Admiral Michel. Well, right--the alternatives analysis will 
provide the answer to that, and it's probably going to be 
either a rolling recapitalization of the Polar Star or to try 
to bring, let Polar Star taper off and then try to bring Polar 
Sea back on and bridge out to the new icebreaker. I do not know 
which one at this point, which path we would want to take. I'm 
not aware of any other--we've looked out there for vessels to 
lease for heavy icebreaking capability. There's nothing out 
there on planet Earth that you can lease in the heavy 
icebreaking area. So that's kind of where we are, sir.
    Mr. Hunter. Was it the Fins that just came into my office? 
I can't remember whether we had the Norwegians or the Fins. I 
mean--have you--you've all looked at that, right?
    Admiral Michel. Yes. As a matter of fact, I traveled to 
Sweden and Finland.
    Mr. Hunter. Yeah.
    Admiral Michel. And talked to them. And they do not have 
heavy icebreaking capability that will meet the needs as in the 
Fed Biz Ops. As a matter of fact, what I'm talking, Fed Biz 
Ops, there's a technical package that Coast Guard put out for 
our heavy icebreaker. It kind of lays out our basic 
requirements, including the long pole in the tent, which is the 
icebreaking requirement. Which is 6-foot minimum at 3 knots, 
desirable 8-foot minimum at 3 knots, and then 21 feet backing 
and ramming.
    When I talked to the shipbuilders over there, they said 
there is not a vessel like that that currently exists that will 
meet those requirements in the Fed Biz Ops technical package. 
So you'd have to build a vessel like that. And that's the type 
of vessel that we're looking for.
    Mr. Hunter. So the Fins, they have to break themselves out 
of their own sea every year. But that's, that's not the same 
type of ice that's in the Arctic?
    Admiral Michel. Well, it's not as thick. It, medium 
icebreaking capability works in places like the Gulf of 
Bothnia, because the ice is only--I forget the, down there. But 
when you go down to Antarctica, for example, like first year 
sea ice is 6 to 8 feet thick. Multiple year sea ice is many 
times that. That's why the Healy got stuck down there.
    Mr. Hunter. So it's good to--so the options that you're 
telling us, you either take the Polar Star as it either tapers 
off, you recapitalize the Polar Sea and make it work again. Or 
you recapitalize the Polar Star and keep it going so it doesn't 
taper off as it's end of life. And those are your, those are 
your two options?
    Admiral Michel. Those are--those are----
    Mr. Hunter. And you're also saying, and you're also saying 
that zero capability is better than medium or heavy capability? 
Because you have medium-heavy icebreakers out there that are 
available for lease, but you want heavy only. And you're saying 
that you'd rather have zero capability than 80 percent 
capability?
    Admiral Michel. Sir, I think you're--I don't think that's a 
fair characterization. And that's why it's very important to 
hear on----
    Mr. Hunter. You actually spent 2 or 3 minutes saying how 
you don't want medium icebreakers at all.
    Admiral Michel. I didn't.
    Mr. Hunter. How they do no--don't do very well.
    Admiral Michel. Sir, you----
    Mr. Hunter. They get stuck. You gave a Chinese example. But 
so the question is then, to, to fill the capability gap over 
the next 10 years or 20 years or however long it is, your only 
answer is the Polar Star or the Polar Sea. Leasing a vessel 
doesn't, there is no vessel that exists in the world that could 
be leased by the Coast Guard to fulfill 75 percent of what you 
needed to right now. Is that what you're saying? And you would 
rather not have those?
    Admiral Michel. Sir, what I said was, my options for heavy 
icebreaking capability, which is the only ensured global access 
to ice-covered regions, regardless of seasonality and 
otherwise--the only things on the table that I'm dealing with 
right now are Polar Star, Polar Sea, and a new icebreaker that 
we need to begin construction activities on. If you want to 
have a broader discussion about other icebreaking functions, 
then we can talk about that, sir. But that's a different area, 
because that is not global ensured, 7 by 24 by 365 access to 
ice-covered regions.
    Mr. Hunter. It's not a 100-percent solution.
    Admiral Michel. As one of our--it's not a 100-percent 
solution. And in certain scenarios like down in Antarctica, 
it's not only not a solution, it can potentially get you into 
real hot water. That's a broader discussion, because that's a 
different mission set. That's why I used those words, heavy 
polar icebreaking. Because it is a world on its own. And we 
need to talk about that, because that is a national capability. 
That is a national sovereignty capability. A national defense 
function, to provide global ensured access to ice-covered 
regions 7 by 24 by 365. And that only gets done by heavy 
icebreaking capability.
    Mr. Hunter. OK. So here's my last question. Could you 
explain to everybody why it's important to break ice? And then 
tell me this. If we're looking for 7/24/365, what are we 
operating at now?
    Admiral Michel. So icebreaking in and of itself, there are 
times that you really do need to break ice, for flood control 
reasons or to escort vessels in and out.
    Mr. Hunter. And tell us this. So let's narrow this down. 
Why is it a national security strategic priority to break ice? 
On the national security side. I don't care about, you know, 
some ship getting stuck who's doing science stuff. Why is it a 
national security priority?
    Admiral Michel. Sir, if you cannot provide presence to an 
area, you cannot assert national sovereignty.
    Mr. Hunter. Then what are we doing right now?
    Admiral Michel. The Nation's only operating heavy 
icebreaking capability is the Polar Star. And that ship is 
current----
    Mr. Hunter. That operates 24----
    Admiral Michel. That ship is currently operational. It 
requires a significant amount of maintenance just to keep the 
thing running. It has no self-rescue capability, unless we 
happen to call in some other country that happens to have a 
heavy----
    Mr. Hunter. That's what I'm trying to get to. So what is 
our capability now, then? Right, right now?
    Admiral Michel. The Polar Star, sir.
    Mr. Hunter. OK. And is it 7/24/365?
    Admiral Michel. It has the capability, but it has such a 
maintenance schedule that it gets pulled out of the water 
regularly. And you're going to have to button the ship back up 
in order to get anywhere. That's the problem with having only 
one, sir.
    Mr. Hunter. So we don't have--so what you're saying is 
right now--how would you measure the capability gap that we 
have right now, that exists right now today?
    Admiral Michel. Well, we have one, one heavy polar 
icebreaker.
    Mr. Hunter. That operates how many days----
    Admiral Michel. That ship does----
    Mr. Hunter [continuing]. Out of the year?
    Admiral Michel. Well, that, that ship has the capability of 
accessing anywhere in the ice-covered regions, 7 by 24 by 365. 
It has that capability. Except for very shallow areas, where 
you may have----
    Mr. Hunter. Yeah, I understand the capability of it. How 
often does it do that, or how often can it?
    Admiral Michel. Well, this is what the maintenance 
schedule--last year, that ship, that ship's crew spent 305 days 
away from their families, either down in Antarctica or at the 
shipyards, which was away from their homeport, getting that 
ship prepared. So you can operate.
    Mr. Hunter. So beyond getting it fixed, what is our 
capability right now in heavy ice? What is the capability right 
not today? If that--is it operational right now?
    Admiral Michel. The Polar Star is an operational vessel. 
Yes, sir.
    Mr. Hunter. OK. And what, so what is our capability like 
this year, for instance?
    Admiral Michel. Well, we typically have that ship programed 
to operate 185 days away from home port. But it's got such a 
significant maintenance load, it basically goes from the 
shipyard, and then it does its work down in Antarctica, then it 
goes back to the shipyard. And it gets refurbished, and we send 
it back down to Antarctica again.
    Mr. Hunter. So here's, so this is it. I've taken way too 
long. If it's so important that the President has asked for 
this, that OMB has put it in, we don't have the capability 
right now. So how can it be that big of a priority? If you 
don't have the ability to do what we need to do now to match 
what the President is requesting, is it really that big of a 
priority? Do we really need an ice, two icebreakers, two heavy 
icebreakers?
    Admiral Michel. Absolutely, sir. And we've had that.
    Mr. Hunter. If it's so important, why don't we have them 
now?
    Admiral Michel. That's a very sad and long tale, sir, as to 
why it has taken so long to recapitalize this category of 
vessels. I don't know how much time you want to take on that. 
But this, I used to be a Commander, and I used to work----
    Mr. Hunter. Zero. I'm going to--I'm hearing her talking in 
my ear. I'm going to yield to the ranking member here.
    Admiral Michel. I worked on this issue 15 years ago myself, 
sir.
    Mr. Hunter. We're going to beat this horse more.
    Mr. Garamendi. Thank you, Mr. Chairman. I'm not sure we 
broke through the ice yet. But we know that we do have a 
hearing coming up on the 12th, and I think Admiral Michel has a 
pretty good idea of the kind of questions that's going to be 
coming at him on the 12th of June--July. And it'll be a very, 
very important meeting. I did note in your testimony you said 
that you really need three heavy icebreakers to do the job that 
the chairman was trying to get to. That's the Arctic and the 
Antarctic, in the most extreme environment. So the question for 
the 12th will be how do we get those three icebreakers, over 
what period of time. What is the schedule for them. And also 
the role of the Polar Star and the Polar Sea in the interim. So 
we'll go at that in detail. In between now and the 12th, I'm 
sure that we'll have some additional questions to ask.
    A 10th National Security cutter is in the works, at least 
the legislative works. That is two beyond the original call of 
eight. When those, when the ninth is added, which is not so far 
off, and then perhaps a 10th, that changes your force 
structure, your person power and your budgeting. Should we go 
there at all? Should we simply say that nine is quite enough? 
The 10th is a ship too far, too much? And that we should spend 
the time and the energy and money on the Offshore Patrol 
Cutter? Admiral Michel?
    Admiral Michel. Well, sir, NSC 9, and if there is an NSC 
10, none of those are in the President's budget request. Those 
are beyond the program of record. I've testified on that 
before. Obviously, you know, if the Congress provides us with 
National Security Cutters, we'll do our best to put them to 
good use. They're a great ship. They're delivering incredible 
results out there. But those are beyond the program of record.
    And right now my number one recapitalization priority, 
despite my urgency on the heavy icebreakers, which is you know 
another one of the burning fires I have to deal with, is the 
Offshore Patrol Cutter. And that is our number one 
recapitalization priority. And we need assistance from the 
Congress on the $100 million in long lead time materials in FY 
17 for the Offshore Patrol Cutter. That's where my focus is 
right now. Again, if, Congress gives us the National Security 
Cutters, we will try to make them work. They're beyond our 
program of record. They're much more expensive to operate than 
the Offshore Patrol Cutter is going to be.
    Mr. Garamendi. Admiral, we're going to have to be much more 
specific. I know you will do what Congress tells you to do, if 
you have the money to do it. But we're going to have to make 
some decisions here. Do we do a 10th NSC or do we not? If we do 
then obviously there's the capital cost of the ship and then 
there's the ongoing operational costs, that have to come out of 
some other program. The other programs may be the OPC, maybe 
we're going to delay the acquisition of the second or third 
heavy icebreaker, or maybe we're not going to be able to use 
UAVs or whatever.
    So we need your help, very specifically. And the Mission 
Statement that came out in January of this year will help 
advise us on this. But somebody wants a 10th National Security 
Cutter. Do we do it or not? That's going to be a decision we're 
going to have to make in the next couple of months. If we make 
that decision, then something else isn't going to happen. What 
isn't going to happen? Perhaps it is the icebreaker. I want to 
really hone in on that. It's something we must deal with here, 
without our two houses.
    The other questions really go to, we'll come back to the 
icebreaker on the 12th, I'm sure. UAVs we talked about forever, 
but not yet in place. What do we need to--is it important? Is 
it a critical mission asset that the Coast Guard needs? If so, 
how do we get it? What's the cost? Where does it fit into the 
mission statement, UAVs?
    Admiral Michel. So another broad category of things. So on 
the small UAV front, I think you know, we've already deployed 
ScanEagle. A number of platforms are going to have ScanEagle, 
or the small UAS deployed on the NSC permanently here for the 
first time. So in that small category, I think we're OK. We're 
also in a partnership with CBP on their Predator--it's 
essentially Predator B. They call it Guardian. As a matter of 
fact, it's flying down in the transit zone today or it's at 
least deployed down in the transit zone today. So we work with 
them on, on that mission set. The broader piece on the UASs, 
actually one of the pieces here from the 2005 mems, that Jenny 
identified that we're going to have to take a round turn on 
what our view is on these large UASs, land-based UAS or ship-
based.
    We also have worked closely with the Navy on the Fire 
Scout, which isn't really the right sort of platform for us, 
but I don't know what the right answer to that is. I think the, 
both the land-based and the ship-based UASs or UAVs, the larger 
systems, are something I'm intensely interested in. When I was 
JIATF South Director, we would use platforms like this to 
provide wide-area surveillance capability. And that makes your 
assets a lot more effective. And the Coast Guard could 
definitely benefit from that.
    So we have an eye on working on all those programs. We've 
got some unique connections with DOD and also with DHS and CBP. 
So I think we've got the connections. We're going to have to 
make some decisions right now. Our priority, our organizational 
recapitalization priorities are as laid out in the FY 17 and as 
in the FY 17 to 2021 SIP, that I know you have a copy of. Those 
are our organizational priorities. And right now those larger 
UASs are not built in there.
    I can tell you as the Vice Commandant as the Coast Guard, 
same thing when I was a Deputy Commandant for Operations. I'm 
intensely interested in that area, because the technology gets 
better and better. At all times, get better and better. The 
sensors get better and better and smaller and smaller. And the 
back end processing pieces get better and better, and those can 
make our assets so much more effective. When I was JIATF's 
South Director, those were great things and I loved having them 
down there. And I'd like to see the Coast Guard get into that 
game. But you know, we got, there's only so much money out 
there, and our organizational priorities are currently as set 
forth in the President's budget and SIP that we provided to 
you.
    Mr. Garamendi. I appreciate your intense interest in this. 
Our task is to make choices. And we have one choice that's 
coming down on us right now. A 10th National Security Cutter. 
Which is over half a billion dollars, not including the 
operational cost. And so the question for the Coast Guard, and 
we need an answer here. Do we do that, or do we spend that 
money on UAVs, UASs, and the like? That's the question. What is 
your answer?
    Admiral Michel. Well, sir, I mean, that's a very easy 
question from the Coast Guard. Our organizational 
recapitalization priorities are as set forth in the President's 
FY 17 budget request, and then the SIP that we provided to you. 
If they're not included in there, it doesn't mean they're not 
things of value. But our organizational priorities are as we 
provided them to you. And that's our best judgement as 
operators and as stewards of the enterprise.
    Mr. Garamendi. Does that include a National Security 
Cutter? Does that include a 10th National Security Cutter?
    Admiral Michel. No, sir. That is not, that is not currently 
in the SIP or in the present budget request.
    Mr. Garamendi. Thank you. I yield back.
    Mr. Hunter. Thanks, Ranking Member. Mr. Gibbs?
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you, Admiral, for 
your service, and the nearly 90,000 men and women that help 
protect our country. Back in March, I submitted questions for 
the record to the Coast Guard regarding the icebreakers on the 
Grand Lakes. And the first question inquired about the Coast 
Guard's memorandum. My understanding was the Canadian Coast 
Guard to provide icebreaking vessels. And the second inquiry 
was about the Coast Guard setting performance targets for 
keeping the high-priority waterways open on the Great Lakes and 
the eastern seaboard. During the ice season, 95 percent of the 
time, that's, I heard, the Coast Guard's goal. However, you 
only collected the data of whether you met the target in fiscal 
year 2014, at which the time the Coast Guard fell short of its 
goal by 10 percent. And I realize that was the bad ice year, I 
believe. Have not received an answer on FY 15 or 2016, which I 
think there wasn't much ice last year. So that probably was not 
too much of an issue.
    But back on the memorandum of understanding, it's my 
knowledge that Canada has gone from seven to two vessels for 
icebreaking on the Great Lakes and Saint Lawrence Seaway. So 
I'm concerned about, you know, what's in that memorandum of 
understanding. Because the peak demand for the upper Great 
Lakes opening up for the season would be probably close to the 
same time as opening up the seaway. And you know, what's our 
situation with that memorandum of understanding of what we're 
going to do to ensure that the Canadian icebreaker would be at 
the Soo locks for example, when, probably at the same time they 
need to be. You know, that, and the eastern part of the Great 
Lakes and the seaway.
    And so I don't know. Usually the Coast Guard's been pretty 
good at getting back to answering these questions. But I 
submitted these questions for the record back in March, and we 
haven't heard back. And so hopefully you can provide them now 
or provide them in the future in a timely manner.
    Admiral Michel. Well, sir, I apologize in advance that you 
have not received that information. All that information should 
be available to you on both our agreements with Canada as well 
as our performance metrics on the, on the ice, which you 
rightfully noted. I mean, that's an example of one of those 
problems that's just very difficult to predict. I mean, some 
years you may end up with a large amount of ice. Like I said, 
in 2014, and we needed the Canadians' help to do all that 
stuff. Whereas last year we hardly had any ice at all. So it's 
difficult to predict. So you've got my commitment to provide 
you with all of that information. We have that information on 
the performance data and we'll definitely get you the 
information on our workings with Canada, which like I said, are 
essential. And we think we add a lot of value to the Canadians 
too, so we help them out. It's a quid pro quo, and really a 
good arrangement that we have with our neighbors to the north.
    Mr. Gibbs. We really only have, well, on the Great Lakes, 
the Mackinaw, is that unavailable right now, or this past 
season? What's its status with that?
    Admiral Michel. No, sir. Mackinaw is up and running. I 
think it's actually in the dockside maintenance period. As a 
matter of fact, I had the commanding officer of the Mackinaw 
was in my office yesterday. He wasn't there to talk about 
Mackinaw, he was there to get some career counseling from the 
Vice Commandant of the Coast Guard. But I talked to him about 
his vessel, and he's really happy with it.
    That's a really interesting vessel. And I'd bring that one 
to your attention. If you haven't seen that, this is a modern 
icebreaking vessel. It's got steerable azipods. It's not a 
blunt instrument like the old icebreakers that we used to have. 
And we also have the 225-foot WLBs, which do icebreaking, 
icebreaking up there. And the 140-foot harbor tugs, essentially 
icebreaking tugs, which work in that area. And the good thing 
about having a down ice season like this, we were able to get a 
number of those vessels down to the Coast Guard yard, and they 
got refurbished. So we're actually in pretty good shape with 
our----
    Mr. Gibbs. Let's, let's say we, let's say next year we 
have, next winter season we have a big ice season like we did 
in 2014. I don't know how many ships, how many icebreakers 
Canada had. But is that correct that they filed them down, from 
seven down to two?
    Admiral Michel. Sir, I'm going to have to get back to you 
on the status of their fleet. They're in a recapitulation 
effort as well, but I'll get you that information.
    Mr. Gibbs. Because I'd be, you know, concerned if they had, 
say they had five of those, five ships in operation in 2014 and 
now they're down to two. And you know, I guess I'm concerned, 
since we had the memorandum of understanding to try to work 
together. Obviously Canada is a great ally. But we want to make 
sure that, if that's going to be an issue. Because the Great 
Lakes, those will be opened up in a timely fashion. That's, 
it's interesting. We did, Mr. Chairman, we did the award in 
2014, we put the Great Lakes as a unit for the Army Corps of 
Engineers.
    And what was interesting, we learned that when you add, put 
all the Great Lakes pushed together, it's 25 percent of the 
economic activity of all the ports. And my good friend from 
California, the both of them from California, I know how big 
the ports are out there on the coast. But 25 percent, when you 
add--and it's interesting what's going on in the Great Lakes 
that's unique, compared to the ports on the west, east and gulf 
coasts.
    There's a lot of the stuff moving in between the ports. So 
if one port can't, if you can't, the Soo locks aren't opened 
up, what that does to the Lake Erie and Ontario regions is, you 
know, a severe impact. Because so much stuff, we're 
interdependent within the Great Lakes. It's obviously moving 
stuff through, through the seaway. But we have a huge 
interdependency. So it's important not only to get the seaway 
open, which I think Canada is probably, you know, maybe they're 
more principal in that. But also to make sure we have the Soo 
locks and the access up to Lake Superior. So thank you. I yield 
back.
    Mr. Hunter. I thank the gentleman. Ms. Hahn?
    Ms. Hahn. Thank you, Mr. Chairman, Ranking Member 
Garamendi, for having this hearing. Admiral Michel, I am glad 
my colleague, Representative Gibbs, brought up the ports. I 
represent the Port of Los Angeles, and Long Beach is right next 
door. We're America's ports. Over 40 percent of all the trade 
that comes through this country comes through our ports. And 
since 9/11, I have been particularly concerned about the threat 
of our national security as it relates to our ports.
    While we have no ice in Los Angeles or Long Beach, I think 
the greater threat really revolves our ports. If there was ever 
something to happen at our port, it would not only cripple the 
regional economy, the national economy, it would cripple the 
global economy. Since FY 01, the Coast Guard's largest 
percentage of funding for missions has been dedicated to ports, 
waterways, and coastal security. However, I've been troubled to 
see in recent years the percent share of funding for these 
vital missions has just decreased. And I would like for you to 
share with me--and I know it's going to be about resources and 
it's going to be about priorities, but I would like to hear 
from you, Admiral, why the share of funding to our ports has 
decreased in recent years.
    Admiral Michel. Well, I think you're talking about Coast 
Guard resource hours from September 11th. So if I can just kind 
of take you back to September 11th. Right after September 11th, 
the Coast Guard was at an all hands on deck evolution, and we 
threw whatever we could at ports, waterways and coastal 
security, because that was deemed to be the threat at the time. 
And there were a lot of Coast Guard boats that were operating 
out. There were a lot of hours, these operating hours that were 
being burned up by boats doing things.
    Today we're in a much actually better position. Because of 
intelligence driven operations, because of programs like 
Protect, which is a randomization algorithm that we use that 
makes out assets actually more effective in deterrence, we're 
able to, with less boat hours, actually provide more 
protection. Just like in the port of L.A.L.B. Think about the 
additional cameras and sensor networks, and the information 
sharing, and the command centers that have been put in place to 
actually inform operations out there. Rather than just throwing 
boats out there just to have kind of a cop on the beat. We're 
so much better than we were back in September 11th, and we can 
do things, Congresswoman Hahn, with less brute force, and 
achieve higher degrees of performance.
    Which, you know, we were talking about operating hours. I 
mean, operating hours are very interesting, and they're 
important for spare parts and dry dock and stuff like that. But 
you want to get at the organizational performance. And an op 
hour, back in September 11th, was way less valuable than a boat 
op hour today, which is all informed by intelligence driving 
operations. Much more capable small boats that we have. Much 
better communications here. Better working relationship with 
the local authorities. I mean, it's just all there. We're much, 
we're much better than we were back then.
    Ms. Hahn. So you, you're, you will say that the threat 
still exists? I mean, after 9/11, I know our ports were 
sometimes in the top 10 of potential targets. So the threat 
still exists. Is that what you're saying? But you think you're 
doing it smarter.
    Admiral Michel. We're doing it smarter and we understand 
the threats much better. So back----
    Ms. Hahn. And share with me how you do lever, since the 
resources seem in my opinion to be less, you may be working 
smarter and with algorithms, but that doesn't make me feel any 
better. Share with me how you're leveraging your limited 
resources with the Port Police, the L.A. County Sheriff's 
Department, FBI, some of the counterterrorism groups that are 
situated right there in the harbor.
    Admiral Michel. Sure. Well, there's a whole piece there. 
And we have an Area Maritime Security Committee.
    Ms. Hahn. Right.
    Admiral Michel. So that, prior to--or after September 11th, 
and at least in its fullest form. And it brings together all 
those port partners, you know. They're all brought together. 
And they deal even with this as sophisticated as cyber, it is 
on the AMSC agenda. And the Coast Guard chairs that. The Coast 
Guard is by statute, the Captain of the Port is the designated 
Federal maritime security coordinator. And he or she has that 
role. And they can bring all those people together and they can 
pool all those different assets and they can set together 
interoperable communications. They can set together combined 
operations. They do exercises. They build on all that stuff. So 
again, it's a much more sophisticated enterprise. And I don't 
want to leave you that you know, the Port of L.A.L.B. is just 
protecting L.A.L.B. You also have to understand that we've got 
mechanisms overseas that work on the cargoes----
    Ms. Hahn. Right.
    Admiral Michel [continuing]. And the foreign nationals and 
foreign ships before they even show up in the Port of L.A.L.B.
    Ms. Hahn. Correct. And I understand that. And I know the 
layered approach to security. But let me just, if I may just 
take a couple, a little bit longer. You know the new----
    Mr. Hunter. Please take as long as you like.
    Ms. Hahn. Thank you. I'm--that was so good. Because if 
you'd have said anything different, I would have been really--
I, you know, the CMA CGM Benjamin Franklin, the megaship, 
called both at Long Beach and Los Angeles, megaships can hold 
up to 22,000 containers. You know that's a lot of containers 
coming into our ports at one time. Much greater than you know, 
we're used to. Explain to me how you know, the Coast Guard is 
ready for that, is prepared for that, you know. Hopefully it's 
more than just algorithms that you're using to consider that 
certain cargo could be at risk.
    Admiral Michel. Well, I mean, it's a challenging question. 
It deals with not only the volume on a particular vessel, but I 
mean, you've just got more containers moving all the time. And 
that becomes a harder and harder risk. The Coast Guard works 
with CBP primarily, but also international partners. And we try 
to vet as many of those shippers. I mean, the good part about 
22,000 containers on a ship is you only deal with one ship. So 
you know, you look at that crew, you look at that ship. Instead 
of multiple ships where you got to look at multiple crews. But 
you got more containers. And all those containers, the, ideally 
you don't want those ships to even show up in the United States 
before they've undergone at least some screening.
    So you deal with things like the Container Security 
Initiative or the Customs Transnational Partnership Against 
Terrorism. CTPAT. Whatever trusted shipper programs, which help 
a lot. So a lot of that box traffic that comes into L.A.L.B. 
comes from people like Walmart and things like that. And they 
have a vested interest in making sure that they provide global 
security chains. And that can help things move through the 
system quicker. So there are screening programs that start all 
the way overseas, with 24-hour lighting rules from the Customs 
service, and electronic manifesting that allows you to look at 
all these different electronic manifests, and try to screen 
those containers before they even show up.
    But it's a challenge, Congresswoman, that increasing global 
trade and things like Panama Canal expansion are going to 
increase all these challenges. Because we love global trade and 
it brings all these great things from the outside, but for an 
agency like the Coast Guard it taxes our system. Because it's 
just more volume that you have to be able to dig through. But 
we try to look at all that stuff.
    Ms. Hahn. And I appreciate it.
    Admiral Michel. That's----
    Ms. Hahn. I appreciate it. And I have had a long 
relationship with the men and women of the Coast Guard. And the 
Long Beach L.A. sector is just such a great place, with the 
wonderful men and women who--our commanding officer out there, 
Captain of the Port, Captain Williams, has been amazing in 
working with us. But I will tell you, I'm going to end by 
saying, I still think our port's a vulnerable entryway into 
this country. And I don't want for any second to feel like 
we've let our guard down. Because I think that's what they're 
waiting for. And they know. One incident of, you know, a mass 
explosion at that port complex could create havoc in this 
country and globally. So you know, pay more attention to the 
ports and less attention to ice.
    Admiral Michel. You've got my full attention, 
Congresswoman.
    Mr. Hunter. I thank the gentlelady. OK. Let's go on a 
little bit more on the icebreaker. Because I get to ask that if 
I want to, because I'm the chairman. So here's my question. We 
were looking back over time, after World War II, in the 1940s, 
we started making icebreakers. We didn't build a heavy 
icebreaker until 77 or so. That was the Polar, s word?
    Admiral Michel. Sea and Star.
    Mr. Hunter. Sea or Star, yeah. So, so we went through the 
majority of the Cold War, we went through 30, 40 years without 
a heavy icebreaker, but multiple medium icebreakers. So my 
question is what were they doing with those non-heavies during 
the Cold War when we had to be in the Arctic? And I'm guessing 
there's a couple of reasons that we wanted to be in the Arctic. 
Russia was the main one. How did we do that without a heavy? 
How did we go for 40 years of the Cold War with no heavy 
icebreakers?
    Admiral Michel. Well, sir, it's an interesting question, 
when you go all the way back in there. And it depends on how 
you classify things. Certainly, Polar Sea and Polar Star, by 
today's, are heavy icebreakers. As a matter of fact, they're 
the most powerful non-nuclear icebreakers that exist. They're 
75,000 shaft horsepower. They can operate independently. You'd 
like to have self-rescue capability. You can operate 
independently. What has happened is, when we--a number of these 
Arctic--we'll only go back to World War II. So a number of 
these icebreakers were built in World War II. The Glacier is an 
example of that. The Island class, Burton Island and the 
different ones. Part of how they got around it was these were 
medium icebreakers. It depends on, Glacier, it depends on how 
you classify it. But these were medium icebreakers. Because you 
have a bunch of them.
    When the Commandant of the Coast Guard came in, we had 
seven polar icebreakers. When the Commandant came in. When I 
came in, we had five. We had Polar Sea, Polar Star, Glacier, 
and two Wind class icebreakers. And when you can send mediums 
down there, multiples of them, it buys down some of your risk 
for getting in a bad situation.
    Mr. Hunter. But let's, but let's keep this simple, because 
I don't want to go on about icebreakers forever again. I'm just 
curious. We didn't have a heavy until the mid, or the late 
1970s. So what did we do in the Arctic, if you had a sub or 
something that needed to get out of the ice. How would we have 
done that without a heavy at all? Because we didn't have a 
heavy at all.
    Admiral Michel. Well, sir, it depends on how you classify 
those vessels. Glacier----
    Mr. Hunter. But Admiral, keep this simple for me. I'm not 
trying to use special words to try to--I'm just asking you, you 
didn't have a heavy. OK, so how do you classify--but you said 
you have to have a heavy-heavy. Because I said medium-heavy, 
and you said no, it's got to be a heavy-heavy. It's got to be 
365/24/7, heavy icebreaker, which we don't have at all now. Or 
we do. They can work half the year or when it has to or when 
it's not getting work done. You don't have the capability now, 
you didn't have the capability for 40 years, post-World War II. 
So what, what is different now to where multiple mediums or 
medium heavies can't take the place of a heavy for the next 10 
years to fill that capability gap? I'm not understanding now. 
Now, I'm totally perplexed because we didn't have it until 
1977.
    Admiral Michel. Clearly, we did not have a vessel as 
capable as Polar Sea or Polar Star.
    Mr. Hunter. Yeah, but you're going for the 100-percent 
solution. I'm asking, how did you not have a 100-percent 
solution but still get the job done for 40 years? That's all 
I'm asking. How did the Navy do that, the Coast Guard?
    Admiral Michel. Sir, I don't know. I'd have to, I'd have--
--
    Mr. Hunter. Well, there's----
    Admiral Michel. How they operated----
    Mr. Hunter. The answer is because they didn't have a heavy, 
and they still got the job done. They were able to make do with 
an 80-percent solution, which you're telling me is impossible 
and not what the Coast Guard wants. And you're willing to wait 
till what, 2026, 2030, for multiple heavies to come online, in 
our dreamline, when you and I are no longer here. And it's the 
next Congress, 10, 20 years from now, and who knows what's 
going on. What you're offering me is kind of a non-solution 
solution. Saying we got to have 100 percent. We didn't have the 
100-percent solution until, you know, fairly recently. So you 
know, help me out here.
    Admiral Michel. Sir, I'm just giving you my best advice. 
And my best advice is to invest in the capability that provides 
you with that ensured global access.
    Mr. Hunter. But how do you fill that gap right now? Without 
leasing multiple mediums, non-heavies, whatever you want to 
call them. The non-superperfect one that you're talking about.
    Admiral Michel. You've got the Polar Star, and you've got 
the Polar Sea, are essentially what's in my tool kit now for 
providing heavy icebreaking capability.
    Mr. Hunter. The Polar Star is only kind of in your tool 
kit, when it's, when it's working. Polar Sea.
    Admiral Michel. No, Polar Sea is broken.
    Mr. Hunter. Polar Sea is broken. Polar Star is kind of in 
your tool kit?
    Admiral Michel. Sir, it's a declared operational vessel for 
the Coast Guard. It's got, it's got baggage because it's an old 
vessel. But it is an operation vessel with the Coast Guard.
    Mr. Hunter. OK. But you understand my reasoning here, 
right? Does that, does it make sense to you?
    Admiral Michel. It makes sense to me, sir, but I don't know 
what the mission sets were in 1955 and 1960. I'm only dealing 
with the present that I have now.
    Mr. Hunter. I would guess it had to do with the Cold War 
and being in the Arctic. That's my guess. Wouldn't you assume 
that? Wouldn't you assume that it had to do with the Cold War 
and the Soviet Union and breaking out subs or doing something 
in the Arctic?
    Admiral Michel. No, I would assume that. And my guess is 
that there was probably more presence up there and maybe more--
--
    Mr. Hunter. But then how were they able to do that without 
a heavy icebreaker?
    Admiral Michel. Sir, I don't know if this is going to be 
productive, because I'm not sure what those mission sets were 
back in those days. And there was a lot more, there was a lot 
more just capability for self-rescue and other things that 
don't exist, don't exist today. It was a different world back 
then than it is today. All I can tell you is it's my best 
advice as a sailor and a guy who's actually been in Antarctica 
and been on Polar Star as it broke out that ice road, dealing 
with these huge chunks of ice. I mean, these things are the 
size of school buses. Trying to, trying to make, break its way 
through there. And the fact that we tried Healy down in the 
Antarctic. And Healy is a pretty capable vessel. It's 30,000 
shaft horsepower, and it got stuck.
    I don't want ships to get stuck. I want to buy capability 
that's going to be enduring and lasting. We only get this 
recapitalization opportunity once every--it's been a long, long 
time. And I want to make sure that what we buy is good, because 
you may not see another one of these icebreakers for 40, 50 
years in the Coast Guard budget. The last time the Coast Guard 
had money in its budget----
    Mr. Hunter. That's what we're going at now. We're going to 
see zero.
    Admiral Michel [continuing]. For a heavy icebreaker was 
Polar Sea and Polar Star. Even the Healy was in the Navy 
shipbuilding budget. So we got to make sure that, all I can 
tell you is it's my best advice, sir, that our best investment 
at this point for heavy icebreaking capability is to figure out 
what to do with Polar Sea and Polar Star to bridge out to the 
new icebreaker that's in the President's budget request. And I 
don't think that that's unreasonable. Do I wish this would have 
been solved earlier? Absolutely I do. And but it's not. And you 
know, I'm the Vice Commandant of the Coast Guard. I got to deal 
with this problem now.
    Mr. Hunter. Well, tell you what. We're going to back and 
look and see how we were able to exist as a Nation that 
operated in the Arctic without having a heavy icebreaker. And 
then we'll come and inform the Coast Guard on how we do that, 
OK?
    So here's my second point here. I have a document. We asked 
CBP, we asked CBP how many requests from the Coast Guard did 
they receive for UAS, OK? Those requests come back here to the 
CBPs. Their marine operations, joint program office, CBP 
headquarters in DC, blah, blah, blah. Here's the CBP's answer: 
``The CBP conducted a careful review, and despite a well-
established process, by which all Department of Homeland 
Security components request UAS support, cannot locate any 
prior requests from the U.S. Coast Guard.'' It was dated April 
25th. So according to the CBP, the Coast Guard has never 
requested UAS. And this is theirs. I just quoted them. OK. Can 
you, can you just talk about that for a minute. What's--that's 
kind of perplexing, right?
    Admiral Michel. Well, sir, for our Coast Guard mission set, 
it actually doesn't surprise me that we wouldn't make a request 
to CBP. Most of those UAS hours that would be useful to us 
would be done through JIATF South. And JIATF South is the one 
who has lead responsibility. It's a DOD entity, as you know, 
that has lead responsibility for detection and monitoring of 
drug trafficking in the Western Hemisphere transit zone. They 
provide us with the network. It doesn't surprise me, because 
CBP is providing it to JIATF South. They're not providing it 
directly to the Coast Guard.
    Mr. Hunter. So we should rephrase our question: How many 
requests has JIATF South requested from CBP for the Coast Guard 
to use UAS?
    Admiral Michel. Sir, we're not the only users of the JIATF 
South network. Like I said, the CBP Guardian is my 
understanding is down and working for JIATF right now, and 
works for a whole range of different partners, including 
international partners, who rely on those sensors that are 
carried by that UAS. So when I say intelligence driven 
operations, then the JIATF South AOR, the Coast Guard is a 
participant in that, but we're not the only part of that 
intelligence driving enterprise.
    Mr. Hunter. But you are the main interdiction, especially 
now that the Navy has left and gone west. You are the main 
interdiction agency that operates there, correct?
    Admiral Michel. For maritime interdiction, the Coast Guard 
typically gets the lion's share of the interdictions. But the 
entire intelligence network that backs that up doesn't, 
actually most of it doesn't belong to the Coast Guard.
    Mr. Hunter. But you're the operational agency that actually 
interdicts. I mean, you have the platforms. You have the 
cutters and the helicopters and the airplanes that interdict, 
right? So you don't find it strange that not a single request 
was logged by the CBP from the Coast Guard? Once again, that is 
not strange to you in any way?
    Admiral Michel. No, sir. No, sir, it is not. When CBP goes 
down and works in that enterprise, they work for JIATF South, 
which is a DOD entity. And they contribute their platforms.
    Mr. Hunter. Does JIATF South have a----
    Admiral Michel. The Coast Guard wouldn't make that request 
directly.
    Mr. Hunter. So the Coast Guard wouldn't request the asset 
at all? It would JIATF South requesting it and telling the 
Coast Guard where to go with it, or what to go look at or what? 
Explain it to me.
    Admiral Michel. JIATF South has tac-con of all the 
resources that are provided JIATF South, including Coast Guard 
cutters. And Coast Guard cutters have to actually chop back to 
the Coast Guard in order to do the law enforcement mission that 
they do down there. But the wider surveillance in the 
intelligence network, that's not directly owned by the Coast 
Guard. I don't know any other way to describe that.
    Mr. Hunter. Do you think it would be a benefit to the Coast 
Guard to own its own UAS? You obviously said you were intensely 
interested.
    Admiral Michel. I told you, sir, I'm intensely interested 
in that, because I'd like to see the Coast Guard get an oar in 
the water and have its own organic capability for its own uses, 
as well as be able to contribute to these broader enterprises 
like JIATF South. And I think the Coast Guard brings unique 
experience within DHS and unique connections with the 
Department of Defense and the intelligence community, to be 
able to actually build out our own organic, systems capability.
    Mr. Hunter. Let me ask you, if your requirements are being 
met right now, by JIATF South and CBP, why would you need your 
own organic capability?
    Admiral Michel. Once again, sir, I can envision. That's not 
the only thing that we would use these for. I can envision 
these being used for remote areas of REEZ that are very 
difficult to monitor. And we probably wouldn't want to you 
know, request that, of CBP, to provide that capability. I don't 
know. But there are a bunch of other mission sets that the 
Coast Guard could use if we had capabilities like this. That's 
why I'm very interested.
    Mr. Hunter. But you wouldn't spend the money on a UAS 
platform or system to go look at the far reaches of REEZ? I 
mean, you would use them for your, your main priority missions, 
I would guess, wouldn't you?
    Admiral Michel. Sir, I think I and the rest of our 
enterprise, we do risk calculations on a daily basis. I've got 
11 missions.
    Mr. Hunter. What I'm saying is, we're not going to allocate 
money for you to get a UAS if the whole point of is to just go 
look at the ocean in the corners of REEZ to make sure that, 
that the coral is growing properly or something. Right? I mean, 
that's not the point of getting the system. It would be used on 
interdictions so you could raise your numbers of drugs and 
ships that you interdict, coming up from South and Central 
America, right?
    Admiral Michel. That, that would be a priority mission. 
There's actually infrastructure in place to do that. So you can 
actually get a land-based system. But, but I don't want to--
sir, I'll give you an example. We get dozens upon dozens of 
illegal fishing vessel and drug incursions along our southwest 
border. On both the Texas side and near your district, we get 
those panga boats that come zipping by. And we get a bunch of 
illegal fishermen over on the Texas side. Both of those mission 
sets could use some additional maritime domain awareness. Which 
could be provided by long dwell sensors placed there by 
unmanned aerial systems.
    So there's a whole bunch of different mission sets that the 
Coast Guard could use these on. For example, our Maritime 
Boundary Line. With, with Russia. We patrol that all the time 
to prevent Russian fishing vessel incursions. Perhaps you could 
use that unmanned aerial system in order to do that. And you 
know, we're probably not going to request that from CBP, 
because I've got other fish I got to fry.
    But if we had our own organic capability that we could use 
to actually build on some expertise in our organization, we 
could use it across a whole bunch of different mission sets. Of 
which drug interdiction on the Western Hemisphere transit zone 
I'd assume would be a priority mission. But it's not going to 
be the only one. I wouldn't want to build it just for that 
particular mission set. I would want to build it so hopefully 
it's multimission platform, and I can use it in all the 
different Coast Guard missions. Since even for, for 
counterterrorism, you can imagine different maritime 
counterterrorism scenarios where you might want to have 
something like that.
    Mr. Hunter. Absolutely. Let me tell you, what you guys are 
saying down South. We have statements from multiple 
coastguardsmen about their requests being denied by the CBP 
when they asked for the assets. And I'll be happy to share that 
with you later, off the record here. You--there have been Coast 
Guard requests for unmanned surveillance aircraft that have 
been denied by CBP. And I'll be happy to share those instances 
with you at some other time.
    Admiral Michel. Yes, sir. I look forward to seeing that. 
I'm not sure exactly what happens all the way down at the 
tactical level.
    Mr. Hunter. OK. I yield to the ranking member.
    Mr. Garamendi. Thank you, Mr. Chairman. I'm going to take 
this a slightly different direction here. There's ongoing 
questions and one of your tasks is the maintenance of 
navigation. And specifically, does your plan call for 
recapitalization of the tenders, the buoy tenders? And if so, 
what's it take? How serious is that problem? There are those 
who think that the buoy tenders are rusting out. Could you 
speak to that?
    Admiral Michel. Well, sir, again there's a couple different 
classes of vessel. So there's kind of the coastal buoy tenders, 
which are 225s and 125s. Those have, actually have an in-
service vessel sustainment program. And they're, they're 
going--as a matter of fact, I think one up on the Coast Guard 
yard right now, they're taking care of some of the--they had an 
engine control system that had some problems. They're replacing 
that whole system. Those are actually in pretty good shape, for 
our coastal buoy tenders. But I think what you're alluding to 
is our inland.
    Mr. Garamendi. It is.
    Admiral Michel. River tender fleet. A lot of that is really 
actually quite old. The good part about is the environmentals 
there are usually pretty benign. They're in freshwater. They're 
not exposed to, you know, the dangers of the sea, because 
they're in a river system. So they tend to, to last a little 
bit longer. We did put some new engines in those craft. But 
those do need recapitalization. They're not currently in our 
capital investment plan. You know, how we include those, it's 
another area that needs to be recapitalized. Currently it is 
not in our organizational priorities to do that, but it's on my 
radar, on my radar for sure. Because there are vessels in there 
that are 50-plus years old and need to be recapitalized.
    Mr. Garamendi. I'd like you to have a little more detail 
about that in response to a written question we'll get you 
about the recapitalization of the inland tenders, buoy tenders. 
I want to spend more time on the UAVs, UASs and the like. It 
seems to me that the technology, as you have said, is rapidly 
advancing. And if we're able to move the Coast Guard more 
quickly into the utilization of these multiple types of assets. 
Some on the water, some in the air. The satellites. And 
particularly the coordination with the other, with the 
military. Some of which is operating--for example, the new 
naval systems, called the Poseidon, the Trident. The Trident. 
That they'll be operating out there, for example, in the San 
Diego area. Part of it being their testing. And perhaps that 
information would also be available to the Coast Guard and to 
the multiple tasks. Some for the Coast Guard, some for the 
Navy.
    So I want to spend time with you on the future of this 
entire aspect, and also where the money is for them. I think 
that, you know, we said some of this earlier with the NSC, the 
10th, half a billion dollars, how many UAS or UAV assets could 
we purchase. The personnel to go with it and so forth. I don't 
expect an answer right now, but just some general philosophy 
from you. I think we've heard some of it. I want to go into it 
in more detail. So if you could expand on that.
    Admiral Michel. Well, it's, I think----
    Mr. Garamendi. We got the book. We got the Mission Needs 
Statement. And we got the President's budget.
    Admiral Michel. Yes, sir. And the President's budget 
layout, our organizational recapitalization priorities, this is 
what I got to rack and stack. So I see great promises in 
unmanned aerial systems. Like I said, I was JIATF South 
Director. I'm a buyer. But I got to put this in rack and stack 
against all my other priorities. And I've got sailors out there 
on ships that are going to be 55 years old. And it's not a 
river tender fleet that's on freshwater on a river somewhere. 
These are people who are out exposed in real perils of the sea. 
Putting out sailors out in 55- and 60-year-old ships, on that 
210-foot class of cutters. Which by the way, got a big bust 
today down operating off----
    Mr. Garamendi. Excuse me, Admiral. I'm going to try to stay 
within my allotted 5 minutes.
    Admiral Michel. Yes, sir. It's just a priority.
    Mr. Garamendi. Here's what I need in order to make 
decisions. I see my task as basically choices. And it is not 
clear to me what the Coast Guard would like to have. There's 
this thing called need to and like to. I'm willing to, the need 
to. I believe that we have to move towards these unmanned 
vehicles, both marine as well as aerial. And the integration of 
them into your operation. Presently, it is not, there's a 
little bit of money in the budget. There's a little bit of 
thinking about it. But it seems to me that it is not adequately 
addressed. So for the Coast Guard, for you, what would be the 
ideal situation, the integration of these types of assets into 
the ongoing operations?
    I understand that you've got men and women out there in the 
ships. The ships are old and there's questions of safety as 
well as viability. But it, how much additional money would be 
necessary to ramp up and then integrate into the Coast Guard 
operation these new types of assets? They're not really new, 
but new to the Coast Guard. I understand you're doing some of 
it today. What would it be? Is it another $100 million, $200 
million, half a billion dollars? What are we talking about 
here? So there's that question. There's one other. So I'm going 
to come back at you in future hearings to dwell upon that 
issue.
    I do have a question that was raised by Ms. Grover, and 
that has to do with the accounting. That it is not uniform 
within the Service. That there are some who are keeping score. 
And there are others that are not. And therefore the ability of 
the Coast Guard management to understand the deployment of 
assets is not as good as it should be. Is that right, Ms. 
Grover?
    Ms. Grover. We found that the Coast Guard data on how the 
assets are deployed by mission is not reliable.
    Mr. Garamendi. OK. So what are you doing about it, Admiral?
    Admiral Michel. Oh, boy. Well, first of all, we're working 
with GAO, and we appreciate them brining that to our attention. 
This is part of the baggage of being a multimission 
organization. So when you send any, any Coast Guard platform 
out there, almost all of them are multimission in nature. And 
how do you account for an hour spent on PWCS and search and 
rescue and maritime law enforcement. And it goes all the way 
down. I mean, and the people who are reporting here, this is 
not captains or something. These are, you know, the coxswain of 
the boat who reports how many hours he or she spent doing 
something in a port.
    And we can certainly tighten it up. I think the call by GAO 
for additional input from the operational commanders will help 
us get the accounting issue. But we, it's a difficult thing for 
a multimission organization to just pin every single hour 
accurately. But we got the challenge and we appreciate GAO's 
highlighting in on that. We'll continue working with them and 
see if we can close the gap here a little bit. Because I think 
there's some money to be made here.
    Mr. Garamendi. Yeah. And I think you should also keep in 
mind what the chairman said at the outset in his opening 
statement. You can become very bureaucratic and waste a lot of 
time and energy. So there's got to be some way in which. But 
the basic point here is the allocation of your resources. 
You've got a ship out there that's, you know, just kind of 
sailing around and not really employed in migration or drugs or 
whatever. So I think that's what you're trying to get at.
    Ms. Grover. Right. And there's no need to overdo it and to 
make it excessively burdensome. The Coast Guard has data 
collection systems in place already. But what we found is that 
the districts are using different approaches, where in some 
cases they allocate all of their hours to one mission. And in 
other cases they make a concerted effort to do at least a rough 
divvy up between where they started out and where they ended 
up. And so I think it's just a matter of some consistent 
direction about how that should be handled.
    Mr. Garamendi. Thank you very much. I yield.
    Mr. Hunter. Mr. Zeldin is recognized.
    Mr. Zeldin. Thank you.
    Mr. Hunter. For as long as he likes.
    Mr. Zeldin. I don't even know if I'll use my 5 minutes, 
Chairman. How's that. Admiral, thank you for being here. Ms. 
Grover, thank you as well. Admiral, I had a question for you. 
As we discussed the allocation of Coast Guard resources, one of 
the concerns that I hear from Long Island boaters is with 
regards to the 911 calls that takes place when there's an 
emergency on water. The Coast Guard has the expertise to deal 
with maritime search and rescue, yet in many cases 911 
dispatchers aren't properly trained and don't know how to 
handle a serious maritime emergency. Or on the other hand, how 
to handle a non-emergency situation where a stranded boater 
might have the maritime equivalent of a flat time.
    We need to ensure that the Coast Guard resources are 
deployed when and where they're most needed to save lives in 
emergency situations, but not misallocated by the deployment 
when not needed. I would like to commend the sector, Long 
Island Sound, which has a great plan working with local law 
enforcement, 9/11 call centers. My question for you is with 
regards to this issue on a national level so that all 911 
dispatchers know how to properly respond to maritime 
emergencies.
    Some of the people who speak to me on Long Island have 
experience in other sectors. And there are different 
experiences elsewhere. And obviously the most extreme example 
is where a 911 dispatcher might be contacting local law 
enforcement officials and you're not getting notified until 
hours later, when it might be too late to successfully complete 
the recovery.
    Admiral Michel. Well, it's an important issue, and it has 
to do with the way people communicate these days. First of all, 
I have to encourage boaters to use their VHF, FM radio. Because 
when they broadcast it out, it broadcasts out broadly to other 
people, including other good Samaritans who may be in the 
neighborhood and be able to render assistance to them. When 
they make a 911 call, I'm not telling them not to, but when 
they make a 911 it just goes to one person. And the other 
people who may be in the vicinity and be able to best provide 
assistance to them, if they don't know about that, then they, 
they may be putting themselves at risk.
    So I'd encourage boaters, use your VHF radio. I'm not 
saying don't use your cell phone, but use your VHF radio, 
because there may be people in the immediate vicinity who may 
be able to come and help you. But we understand people 
communicate in various different ways. They carry their cell 
phones with them. It is a known gap. I'm glad you point out the 
fact that at Long Island Sound--I know other sectors are 
dealing with the exact same issue. And we got the message. And 
I don't know where we stand on national direction on this, 
because it's been left down to the districts and the sectors to 
do this. I'm going to take a round turn on that, Mr. Zeldin, 
and I will get back in touch with you with exactly what our 
program is. But again, I encourage boaters, please use your VHF 
radio, because your nearest help may actually be very close, 
very close by.
    Mr. Zeldin. And where you have a local law enforcement, 
fire department, EMTs, they have a maritime asset that they 
look forward to the opportunity to be able to utilize, 
obviously preferring a training setting than real life, I think 
that not only is there a need to better train that 911 
dispatcher but also do more to encourage local law enforcement, 
encouraging those first responders to contact you sooner.
    Is this a real issue? Because I've heard these anecdotal 
stories from people who are actually in the industry. We have 
CTO is headquartered in my district. The First Congressional 
District of New York is a district almost completely surrounded 
by water, making it unique from that respect as well, and a 
heavy Coast Guard presence. But it just, it seems like there 
might be an issue where even that first responder, when they 
get the phone call, they're not contacting you right away. 
They're trying to go out and do it themselves.
    Admiral Michel. It doesn't surprise me. And again, it's the 
method of the communication. So sort of before the advent of 
cell phones, you had your radio, and everybody would monitor 
that frequency. You know, whether it's the fire department or 
the Coast Guard or other boaters in the area. They'd be on 
channel 16 and they'd listen to things. Everybody got all of 
the information all at one time, and they could all sort of 
respond as needed to that particular circumstance.
    Now, you've got a point to point communication, where 
you've got, you know, a boater in distress, and they're calling 
somebody who's in some call center, in 911. And you've got a 
point to point communication. Then how do you build off that 
back end piece to get all of those people who under the old 
regime would have had access to that information real time? 
That's, that's a real challenge. And that's again why I 
encourage boaters, please use your VHF-FM. But we need to build 
in that back end piece, Mr. Zeldin. And I need to get you a 
report on how we're going to deal with that nationally. I know 
we've dealt with other similar issues in the past, like using 
some of the Star features on cell phones and things like that. 
But how do we really get that point to point communication to 
get to all those as real time as possible? It doesn't surprise 
me that you're getting anecdotal information that it's hard to 
convert that point to point communication, get that to 
everybody all at the same time. Because that, that network 
probably does not exist where it does on something like VHF-FM.
    Mr. Zeldin. Thank you, Admiral. Thank you, Ms. Grover. 
Thank you for the time. I yield back.
    Mr. Hunter. I thank the gentleman. I'm going to hit this 
one, one more time. The chairman of the Joint Chiefs of Staff 
said that the biggest threat to the United States right now is 
Russia. It's not ISIS. They don't have a Navy. They don't have 
an Air Force. They have no nukes. They have nothing. It's, it's 
Russia. The biggest threat arguably to the United States, post-
World War II, and to when the Soviet Union became Russia, was 
Russia, right? So let's just call it Russia.
    So it went on for 40 or 50 years. And now it again, 
according to our chairman of the Joint Chiefs right now, 
Dunford, Russia is the biggest threat that the U.S. has. If a 
war is started with Russia, with our allies or with us, we 
would be unable to traverse north of them at all right now. 
Would you agree with that assessment? They would have--let's 
put it this way. Would the Russians have free passage?
    Admiral Michel. The Russians have a very capable 
icebreaking fleet. I don't want to speak for the Russians, but 
they, there are very few areas that I don't think the Russians 
could go to. I will tell you this. And I testified to this 
before. That with the current icebreaking fleet that we have, 
we cannot as a Nation provide global ensured 7 by 24 by 365 
access to ice-covered regions worldwide. We cannot do it with 
today's fleet.
    Mr. Hunter. OK, well, but I'm just trying to go down, why 
is it so important that we provide 24 by 7 by 365 global 
icebreaking capability?
    Admiral Michel. Sir, as I said before, if you cannot 
provide national presence, you cannot assert national 
sovereignty and national sovereign rights, whatever they may 
be. Whether they're resource related rights, whether they're 
freedom of navigation rights, whether they are national defense 
rights or otherwise. If you can't get there because you've been 
area-denied by the environmentals, you cannot assert sovereign 
rights. And the United States has sovereign interests in both 
the Arctic ice-covered regions ads well as the Antarctic ice-
covered regions.
    Mr. Hunter. So, so during, so let's go back to this. During 
the Cold War, when the Russians and U.S. submariners were 
chasing each other around the oceans, we had access to the 
Arctic north of Russia during that entire time without having a 
heavy icebreaker?
    Admiral Michel. Sir, part--I can't go back and say why they 
built the fleet that they did. They may not have even had the 
capability of building a heavy icebreaker.
    Mr. Hunter. They had the capability.
    Admiral Michel. I don't know whether they had the 
capability in the 1960s to build a vessel like the Polar Star. 
As a matter of fact, to get the horsepower requirements 
necessarily to do what they did with Polar Star they needed to 
use gas turbines and controlled pitch propellers, which are 
very, for that time of environment----
    Mr. Hunter. I'm not saying that----
    Admiral Michel [continuing]. Probably not what you would 
want to choose. They may not have had global ensured access 
both in those days, sir.
    Mr. Hunter. Admiral, hang on. I'm not saying the capability 
to build the ship. We had the capability to break the ice in 
the Arctic above Russia during the Cold War without a heavy 
icebreaker. How is that possible?
    Admiral Michel. Sir, I don't whether that is possible. With 
the fleet that exists in the 1960s, I do not know if they could 
have provided global ensured access. There may have been ice 
regions that they were incapable of getting to. I can tell you, 
my job today, and the Commandant said in the cooperative 
strategy that he signed with the CNO and the Commandant of the 
Marine Corps, that we will provide global ensured access. And 
the Coast Guard piece of that is icebreaking. Global ensured 
access, 7 by 24 by 365, required heavy icebreaking capability 
of which the Polar Sea and the Polar Star are capable of doing 
that. And we've, we've gone through that.
    So I don't know what the world was in 1960, where you could 
get everywhere in ice-covered regions. I can tell you the 
cooperative strategy lays that out as a task for the Coast 
Guard. And that's the task that I have is to provide that 
global ensured access. And it's our icebreaking fleet, heavy 
icebreaking fleet that does that primarily. There are roles for 
medium icebreakers, but they cannot operate on that type of a 
basis.
    Mr. Hunter. OK. Ms. Grover. I feel like I've ignored you. I 
don't know, I don't even know how to phrase this question, 
really. When you look at things beyond, beyond hours of service 
and allocation of assets, when you look at Coast Guard mission 
sets, and the prioritization of those missions, do you look at 
those things? Do you look at how the Coast Guard prioritizes 
its missions, and then how the assets are allocated to that 
prioritization?
    Ms. Grover. Well, we have information about what the Coast 
Guard's plan is for its prioritization of asset hours by 
mission. But I can't give you an analysis of the extent to 
which that's carried out, because of the problems with the 
data.
    Mr. Hunter. OK. So you can't say whether the asset 
allocation matches overall the mission or by mission, because 
of the data?
    Ms. Grover. That's right.
    Mr. Hunter. OK. OK. Mr. Graves is recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. I 
appreciate it. Admiral Michel, thank you for being here today. 
And I know that the chairman covered icebreakers a little bit. 
I had one question perhaps. And I apologize. I was missing for 
a few minutes. I wanted to make sure we got an answer on. The 
Healy at some point is going to be going through a SLEP, is 
that, is that accurate? And I understand that in the 
questioning earlier you discussed how a medium icebreaker 
perhaps provides an 80-percent solution.
    What happens when the Healy is in the SLEP? Because the 
Healy is going to be put in a SLEP, as I understand, within the 
10-year window that you indicated was possible to deliver a 
heavy. So we then have some significant deficiencies in regard 
to capabilities.
    Admiral Michel. Now, that's spot on and that, we're going 
to have to figure out the timing on that and when we're going 
to have to do a SLEP. You know, we've had some money. I think 
we had money in the 2016 budget and got some money in the 2017 
budget to do this survey work. And we're going to have to time 
that with the rest of the icebreaking fleet. It's a medium 
icebreaker. It's not going to meet requirements for things like 
Antarctica and stuff like that, but it's going to have to be 
timed with the rest of the fleet. I think you're spot on, 
Congressman Graves.
    Mr. Graves of Louisiana. And so, Admiral, I think, I think 
along the lines of the chairman's questioning, I certainly 
don't intend to put any words in his mouth. I think the concern 
is on the part of many members of the committee is sort of the 
interim strategy. So I don't think there's any question here 
that we have need for additional icebreaking capabilities, 
especially when you compare out capabilities to other Arctic 
nations. We're getting blown away right now.
    But for us to put all of our eggs in the basket of the 
heavy in the long-term strategy, it does leave a gap, 
particularly, that gap is exacerbated by the fact that the 
Healy's going to have to go through a SLEP at some point during 
that 10-year window. And I think that the interim strategy is 
something that's a concern of many folks here. So can you 
remind me, when is the survey or the report due back on the 
Polar Sea?
    Admiral Michel. So the, the--I had told the committee that 
as the Commandant promised, on July the 24th, we'll have the 
material assessment on the Polar Sea. That will not include the 
entire alternatives analysis, which is kind of what we get, the 
broader context. But the material assessment is due to the 
committee on July the 24th. We had folks out there looking at 
it when it was out of the water, and I anticipate we'll deliver 
that report on time.
    Mr. Graves of Louisiana. Great. Thank you, Admiral. I yield 
back.
    Mr. Hunter. I thank the gentleman. Yeah, so we, we have a 
hearing on July 12th, but July 24th is when we're going to get 
the--and we're not going to be here. I'm not sure what, we come 
back, till like September, after the--so we're not going to be 
here to hear what the update is on the Polar Sea. But we can 
get that out to everybody. When it comes in, we'll push it out. 
So thanks. I'd like to yield to the ranking member.
    Mr. Garamendi. Admiral Michel, thank you very much. We've 
gone into icebreakers in great detail. We'll do that again on 
July the 12th and we'll pick up the pieces of this. You've got 
an extraordinarily complex world, and many, many missions in 
which you have to deal. My fundamental concern is that we have 
the information necessary to give you the money and the 
resources necessary to carry out the tasks. I recognize those 
tasks, the prioritization, that changes over time. There are 
emergencies. There's Deepwater Horizon. And suddenly you're off 
to a different task. Or there's a hurricane and whatever. So I 
understand that. I want to make sure that you're positioned for 
the future. The icebreaker is a 10-year project. I understand 
that. Many of these other programs are also going to be long-
term projects.
    I want to make sure that you're starting today or you're 
underway today with the resources that you need for the future. 
Personnel. And the assets that they will need. We've talked 
some about unmanned aerial vehicles, or aerial as well as 
surface and marine. We wanted to go into that in much more 
detail.
    Of specific interest to me is the integration of the total 
American assets. So the Coast Guard is able to integrate with 
the military. I know you do much of this already in 
cybersecurity and in other areas, some of which are classified. 
But there's much, much more that's available there. I know the 
State Department is working on a program having to do with the 
fish in the ocean or the fish that are no longer in the ocean. 
And that's another task that the Coast Guard has.
    So the integration across the whole of Government is of 
great interest to me so that we can better utilize and 
integrate the resources. So the next conversation we're going 
to, that I would like to have with you, and the, some of this 
is in the icebreaking area, is the integration across the whole 
of Government. I don't expect an answer today. I am going to 
have some questions if the chairman would allow that we could 
get in written form and get some answers back. And David will 
get those to you. Mr. Chairman, thank you for this hearing and 
Admiral Michel, Ms. Grover, thank you.
    Mr. Hunter. I thank the gentleman. Hey, thank you both for 
being here. As Mr. Garamendi said, we're trying to, number one, 
you have the responsibility of breaking ice north of Russia. 
That's right now a Coast Guard responsibility. You know, Mr. 
Garamendi and I are both on the Armed Services Committee. Maybe 
that needs to be a Navy responsibility. Because right now 
there's a giant gap where we're unable to break ice north of 
Russia. From the Bering Sea, north and west. We can't do it 
right now. You don't have the capability to do it for a 
sustained amount of time at all. So the question is, number 
one, should it even be a Coast Guard responsibility. If it's a 
national strategic priority, should it be a Coast Guard 
responsibility, or should we just go, ``Navy, do it. Build 
them, do it, make sure we have the capability to be up there, 
to break something out of the ice or to move to if we need to 
or want to.''
    We're just trying to help you get there. Wars don't come on 
our acquisition timelines. Wars don't match our 12-year 
outlook. Wars happen when they happen, and right now we're not 
prepared for one. This is a big gap. This is why the Navy's 
looking at this finally. This is why the Senate just put in $1 
billion. This is why the House, the stingy house, just 
appropriated $150 million. This, this is becoming more and 
more, it's becoming clearer day by day that we have to be up 
there. And people are finally starting to understand that, 
right? So that's the good side, I guess, is that we've been 
yelling loud enough and knocking on enough doors to where now 
it is a priority. So no matter how it plays out, at least it's 
going to be there at some point going forward.
    When it comes to the unmanned aerial systems, any way that 
we can help you leverage your current assets, that's what UAS 
does. It helps you leverage what you have. It's not the be all 
end all but it makes the rest of your assets that much better 
at what they do. Because instead of having to use a helicopter 
or a C-130, you can send that out there and you can do 
reconnaissance. You can do all kinds of stuff. I mean, massive 
leveraging of your assets, right? We just want to get there in 
this lifetime. On budget and on time.
    And anything that we can do to help you we will do, but we 
need to know from you what you want. And I know you're doing 
analysis, but it's not like unmanned aerial systems are new. 
They aren't a new thing. Especially a land-based unmanned 
system. You talked about Predator B. General Atomics has given 
us a price sheet. Because we've asked them, ``What would it 
cost the Coast Guard to maintain an organic fleet of two 
Predators, land-based? What would it cost?'' Twenty million 
dollars for one. That's what, with them operating, flying for 
you, doing, putting it out wherever you want.
    There's an actual cost for you. If you get two it goes 
down. If you get three it goes down more. Right, that's how it 
works. But these systems are out there and they're available 
right now. It doesn't take a whole bunch of research or 
analysis to go, ``Man, what, what do we have now? What can we 
buy and put in our arsenal?'' We have them out there. They've 
been tested, tried and true, right?
    So those exist right now. And they're not super expensive. 
Twenty million bucks for one. When it's operated by somebody 
else, you're not going to incur any operation costs. No 
maintenance costs, no parts costs. That's just General Atomics 
operating a Predator B for you. That sounds like a good deal to 
me.
    We could probably find 20 million bucks for that. We're 
just here to help. So we're going to keep pushing on these 
things. But we can't help you unless we get the answers from 
you of what you need. And it seems like it's always the 
analysis is being done. The analysis is being done, the 
analysis is being done. We're finally going to get an answer on 
July 24th on one of these analysis. But we are here to help. 
You let us know what we can do and what we can provide you to 
make you better at your job. So thank you for your service.
    I just saw the movie on, by the way, what was the movie 
with the ``Star Trek'' guy, the guy who started ``Star Trek,'' 
what was--``The Finest Hours.'' Yeah, fantastic. Those, those 
cutters looked pretty old too, right? I think you're always 
operating with less than you should operate with, but that's, 
that's what happens. That's how we got to war. That's how we 
fight. That's how we go to sea. We just get the job done with 
what we have. So thank you very much to you and your men and 
women. And Ms. Grover, I'm sorry I didn't have more questions 
for you. I got caught up in this whole national security thing 
today. But I appreciate it. And with that, the hearing is 
adjourned.
    [Whereupon, at 11:51 a.m., the subcommittee was adjourned.]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                       [all]
</pre></body></html>
